                                                                                         OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 1 of 4) Version 4.0a
                 Reporting Entity: Department of State - OIG
               Month Ending Date: 04/30/2010

                                                                   Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau           Recovery Act TAFS        Award Type       US Indicator       Total Obligations      Total Gross       Direct or      Ordering TAFS
No.                                                                                                                          Outlays       Reimbursable
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $37,608         $276,070      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 1                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                     $137,618          $78,845      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 2                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $20,000          $10,127      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 3                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                    $108,308          $54,148       Direct            N/A
                                    State - OIG - Recovery   Orders (including
 4                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                    $118,799            $1,428      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 5                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $95,137           $1,263      Direct            N/A
                                    State - OIG - Recovery   Orders (including
 6                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                    $164,159                        Direct            N/A
                                    State - OIG - Recovery   Orders (including
 7                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $88,574                       Direct            N/A
                                    State - OIG - Recovery   Orders (including
 8                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $72,249                       Direct            N/A
                                    State - OIG - Recovery   Orders (including
 9                                  Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $95,137           $1,428      Direct            N/A
                                    State - OIG - Recovery   Orders (including
                                    Act                      modifications)
      Department of State - OIG     (19-0530 2009 \ 2010)    Contracts and          Y - US                      $95,137           $1,407      Direct            N/A
                                    State - OIG - Recovery   Orders (including
10                                  Act                      modifications)

                                                    Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau         FY 2009 Non-Recovery      Total FY 2009     Total FY 2009   FY 2010 Non-Recovery     Total FY 2010    Total FY 2010
No.                                        Act TAFS             Obligations      Gross Outlays         Act TAFS            Obligations     Gross Outlays
      Department of State - OIG     (19-0529 2009) State -             $59,536          $59,536 (19-0529 2010) State -           $33,638          $33,638
 1                                  OIG                                                         OIG
 2
 3
 4
 5
 6
 7
 8
 9
10


                                                                                                                                                                       State OIG ARRA Monthly Report April 2010.xlsx
                                                                                          OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 4) Version 4.0a
         Reporting OIG: Department of State - OIG
     Month Ending Date: 4/30/2010

                                  FTE Working on Recovery
                                                                                                                                                                   Testimonies:
        Fiscal Year                  2009              2010                          Cumulative
         Newly Hired FTE
                                      0.00                      0.00                      0.00                                                             Provided (monthly):        0
             (cumulative):

FTE Funded by Recovery
                                      0.08                      0.80                      0.88                                                           Provided (cumulative):       0
 Act Funds (cumulative):

      FTE Not Funded by
      Recovery Act Funds              0.50                      0.13                      0.63
           (cumulative):

                                                                                                                                                       Audits / Inspections / Evaluations /
                Complaints                          Whistleblower Reprisal Allegations                              Investigations                                                                    Training / Outreach
                                                                                                                                                                     Reviews
               Monthly Data                                      Monthly Data                                       Monthly Data                                  Monthly Data                            Monthly Data

                                                                                                                                                                                                      Training Sessions
                  Received:            0                               Received:           0               Opened (this month):               0          Initiated (this month):      4                                           0
                                                                                                                                                                                                             Provided:

                                                                                                         Active (as of the end of                      In Process (as of the end
                                                                       Accepted:           0                                                  0                                      10            Individuals Trained:           0
                                                                                                                     the month):                                 of the month):
                                                                                                                                                               Completed Final
                                                                                                                                                                                                      Hours of Training
                                                                                                                Pending Decision:             0                 Published Work        0                                           0
                                                                                                                                                                                                             Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                Priority Interim
                                                                                                                                                                                                     Outreach Sessions
                                                                                                         Closed without Action:               0                 Published Work        0                                           2
                                                                                                                                                                                                           Conducted:
                                                                                                                                                                       Products:
                                                                                                                  Accepted for                               Unpublished Work
                                                                                                                                              0                                       0
                                                                                                                   Prosecution:                                      Products*:
                                                                                                          Prosecution Declined:               0
                                                                                                        Referred for Alternative
                                                                                                                                              0
                                                                                                                     Resolution:

  Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final
                                                                                                                                                                                                      Training Sessions
                  Received:            3                               Received:           1             Closed without Action:               0               Published Work       5                                              1
                                                                                                                                                                                                             Provided:
                                                                                                                                                                    Products:
                                                                                                                                                              Priority Interim
                                                                                                                      Accepted for
                                                                       Accepted:           0                                                  0               Published Work                       Individuals Trained:          20
                                                                                                                      Prosecution:
                                                                                                                                                                    Products:
                                                                                                                                                           Unpublished Work                           Hours of Training
                                                                                                          Prosecution Declined:               0                                    1                                             40
                                                                                                                                                                   Products*:                                Provided:
                                                                                                        Referred for Alternative                                                                     Outreach Sessions
                                                                                                                                              0              Cumulative Total:        6                                           4
                                                                                                                     Resolution:                                                                           Conducted:

                                                                                                               Cumulative Total:              0

*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                          State OIG ARRA Monthly Report April 2010.xlsx
                                       OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 04/30/2010

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     Held entrance conferences for three performance audits being conducted by an Independent Public Accountant (IPA) for
         1
                     Department programs funded by ARRA:
         2            * Construction of Passport Facilities ($15 million)
         3            * Hard Skills Training Center ($70 million)
         4            * National Foreign Affairs Training Center ($5 million)
         5           Received two draft reports from IPAs, held exit conferences, began processing draft reports for Department comments
         6             * International Boundary and Water Commission Contract Award and Management of Funds Provided by ARRA
         7             * Department Compliance with Transparency and Accountability Reporting Requirements of ARRA
                     Initiated new performance audit by an IPA, requested by Department's Deputy Chief Financial Officer, on Department
         8
                     Recovery Act Reporting to the Federal Procurement Data System
         9
        10

       No.                                OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
                     Initiate performance and financial audits, to be conducted by IPAs in El Paso, Texas, for IBWC Recovery Act contracts
         1
                     that will include contractor compliane with labor standards and regulations
                     Assist IPA conducting a performance audit of Worldwide Computer Security System Enhancements funded by ARRA.
         2           OIG staff will travel overseas to verify ARRA-funded equipment purchased for embassies that will provide next generation
                     secure telephones and security systems for computer system authentication and access controls.
         3
         4
         5
         6
         7
         8
         9
        10




                                                                                                       State OIG ARRA Monthly Report April 2010.xlsx
                                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of State - OIG
   Month Ending
                 04/30/2010
           Date:

                                                                                            TRAINING ACTIVITIES
                                                                                                                                                    Hours of
                                                                                              Training                   Length of                  Training                 Presentation     Average
                                                    Target                                                   Date of                  Number of                   Cost of
      No.              Type of Training                               Title of Training    Location (City,                Training                 Provided                   with Other     Evaluation
                                                   Audience                                                  Training                Participants                 Training
                                                                                               State)                     (hours)                   (length x                    OIGs          Rating
                                                                                                                                                  participants)
       1                                                                                                                                                      0
       2                                                                                                                                                      0
       3                                                                                                                                                      0
       4                                                                                                                                                      0
       5                                                                                                                                                      0
       6                                                                                                                                                      0
       7                                                                                                                                                      0
       8                                                                                                                                                      0
       9                                                                                                                                                      0
      10                                                                                                                                                      0
      11                                                                                                                                                      0
      12                                                                                                                                                      0
      13                                                                                                                                                      0
      14                                                                                                                                                      0
      15                                                                                                                                                      0
                                                                                                                          TOTAL                 0             0

                                                OUTREACH ACTIVITIES
                                                   Number of
                                                 Organizations                               Outreach
                    Organization to which                        Description of                               Date of
      No.                                        Represented at                            Location (City,
                     Outreach Provided                              Outreach                                 Outreach
                                                   Outreach                                    State)
                                                    Session
                 Department of State domestic                      ARRA oversight and
       1                                                      10                          Arlington, VA       4/6/2010
                 bureaus and overseas posts                        reporting

                 Department of State domestic                      ARRA oversight and
       2                                                      10                          Arlington, VA      4/15/2010
                 bureaus and overseas posts                        reporting
       3
       4
       5
       6
       7
       8
       9
      10
      11
      12
      13
      14
      15


                                                                                                                                                                  State OIG ARRA Monthly Report April 2010.xlsx
